HHS/OIG, Audit -"Credentialing and Privileging Practices at Northern Navajo Medical Center,"(A-06-04-00023)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Credentialing and Privileging Practices at Northern Navajo Medical Center," (A-06-04-00023)
August 16, 2004
Complete
Text of Report is available in PDF format (296 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Shiprock Hospital had completed the credentialing, privileging, and
personnel suitability reviews for its medical practitioners (practitioners).  Shiprock Hospital did not routinely
complete required credentialing, privileging, or personnel suitability reviews for its practitioners.  Shiprock Hospital
did not routinely complete required credentialing, privileging, or personnel suitability reviews for its practitioners.  For
the 84 practitioners we reviewed, Shiprock Hospital did not (1) verify the credentials for 32, or 38 percent, before the
practitioners provided patient care; (2) ensure that 67, or 80 percent, had current privileges, with lapsed period ranging
from 3 days to over 3 years; or (3) request the Office of Personnel Management to perform a background investigation of
41, or 49 percent.  As a result, the hospital's management could not assert full assurance that its practitioners
had the appropriate qualifications, authorizations, and personnel history to provide patient care.  Among other things,
we recommended that IHS ensure that Shiprock Hospital has a sufficient number of staff assigned to adequacy perform the
credentialing and privileging processes before the practitioners provide patient care, has fully implement credentialing
and privileging computer software to track and monitor the status of its practitioners, and reports privileging problems
and associated corrective actions to the Joint Commission, as appropriate.